No. _________
IN THE SUPREME COURT OF THE UNITED STATES

JESUS SANCHEZ-CHACON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10602
Summary Calendar

FILED
May 5, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
JESUS SANCHEZ-CHACON,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-3-1
Before HIGGINBOTHAM, HO, and ENGELHARDT, Circuit Judges.
PER CURIAM: *
Jesus Sanchez-Chacon appeals his sentence for illegal reentry following
deportation. See 8 U.S.C. § 1326(a), (b)(1). He was sentenced to 70 months of
imprisonment and three years of supervised release. He contends that the
enhancement of his sentence pursuant to § 1326(b)(1) based on a prior felony
conviction, which increased the statutory maximum terms of imprisonment
and supervision, is unconstitutional because his prior conviction is treated as

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

No. 19-10602
a sentencing factor rather than an element of the offense that must be alleged
in the indictment and found by a jury beyond a reasonable doubt or admitted
by him following a proper admonishment. Sanchez-Chacon concedes that this
issue is foreclosed by Almendarez-Torres v. United States, 523 U.S. 224 (1998),
but he seeks to preserve the issue for possible Supreme Court review because
he asserts there is reason to believe the Court may revisit Almendarez-Torres.
The Government moves for summary affirmance based on Almendarez-Torres
or, alternatively, for an extension of time to file a merits brief.
The parties are correct that Sanchez-Chacon’s argument is clearly
foreclosed by Almendarez-Torres. See United States v. Wallace, 759 F.3d 486,
497 (5th Cir. 2014); United States v. Pineda-Arrellano, 492 F.3d 624, 625 (5th
Cir. 2007). Accordingly, the Government’s motion for summary affirmance is
GRANTED. See Groendyke Transp., Inc. v. Davis, 406 F.2d 1158, 1162 (5th
Cir. 1969). The Government’s alternative motion for an extension of time is
DENIED. The judgment is AFFIRMED.

2

APPENDIX B

U.S. DISTRICT COURT

Case 4:19-cr-00003-A Document 31 Filed 05/17/19

DISTRICTOf'JEXAI
Page 1 ofJroJm-ISR.N
5 PageID
79

FILED

&nittb s;tatts J)istrirt QCourt

MAY 1 7 2019

Northern District ofTexas
Fort Worth Division

UNITED STATES OF AMERICA

§

v.

§

JESUS SANCHEZ-CHACON

§

CLHRK. U.S. DISTRICT COUitf
By.--~~--­
lkputy

Case Number: 4: 19-CR-003-A(O 1)

JUDGMENT IN A CRIMINAL CASE
The government was represented by Assistant United States Attorney Michael Levi
Thomas. The defendant, JESUS SANCHEZ-CHACON, was represented by Federal Public
Defender through Assistant Federal Public Defender John J. Stickney.
The defendant pleaded guilty on February 1, 2019 to the one count indictment filed on
January 8, 2019. Accordingly, the court ORDERS that the defendant be, and is hereby, adjudged
guilty of such count involving the following offense:
Title & Section I Nature of Offense
8 U.S.C. § 1326(a) and (b)(l) Illegal Reentry After Deportation

Date Offense Concluded
11/22/2018

Count
1

As pronounced and imposed on May 17, 2019, the defendant is sentenced as provided in
this judgment.
The court ORDERS that the defendant immediately pay to the United States, through the
Clerk of this Court, a special assessment of $100.00.
The court further ORDERS that the defendant shall notify the United States Attorney for
this district within 30 days of any change of name, residence address, or mailing address, as set
forth below, until all fines, restitution, costs, and special assessments imposed by this Judgment
are fully paid. If ordered to pay restitution, the defendant shall notify the court, through the clerk
of this court, and the Attorney General, through the United States Attorney for this district, of
any material change in the defendant's economic circumstances.
IMPRISONMENT
The court further ORDERS that the defendant be, and is hereby, committed to the
custody of the United States Bureau ofPrisons to be imprisoned for a term of70 months. This
sentence shall run consecutively to any sentences in the cases pending before the 415th District
Court of Parker County, Texas, under Case Nos. CR19-0044, CR19-0045, and CR19-0046 and
any sentence in Parker County Court at Law No. 2, under Case No. CCL2-19-0022.
The defendant is remanded to the custody of the United States Marshal.

1

·j,,

Case 4:19-cr-00003-A Document 31 Filed 05/17/19

Page 2 of 5 PageID 80

SUPERVISED RELEASE
The court further ORDERS that, upon release from imprisonment, the defendant shall be
on supervised release for a term of three (3) years. The court imposed a term of supervised
release because it will provide an added measure of deterrence and protection based on the facts
and circumstances of this case.
Pursuant to 18 U.S.C. §3583(d), as a condition of supervised release, upon the
completion of the sentence of imprisonment the defendant shall be surrendered by the Federal
Bureau of Prisons to a duly-authorized immigration official for deportation in accordance with
the established procedures provided by the Immigration and Nationality Act, 8 U.S.C. § 1101 et
seq. As a further condition of supervised release, if ordered deported the defendant shall remain
outside the United States.
In the event the defendant is not deported immediately upon release from imprisonment,
or should the defendant ever be within the United States during any portion of the term of
supervised release, the defendant shall comply with the standard conditions ordered by this court
and shall comply with the following additional conditions:
1.

The defendant shall not unlawfully possess a controlled substances.

2.

The defendant shall not commit another federal, state, or local crime.

3.

The defendant shall cooperate in the collection of DNA as directed by the U.S. Probation
Officer, as authorized by the Justice for All Act of2004.

4.

The defendant shall refrain from any unlawful use of a controlled substance, submitting
to one drug test within 15 days of release from imprisonment and at least two periodic
drug tests thereafter, as directed by the probation officer pursuant to the mandatory drug
testing provision of the 1994 crime bill.

5.

The defendant shall also comply with the Standard Conditions of Supervision as
hereinafter set forth.

Standard Conditions of Supervision
1.

The defendant shall report in person to the probation office in the district to which the
defendant is released within seventy-two (72) hours of release from the custody ofthe
Bureau of Prisons.

2.

The defendant shall not possess a firearm, destructive device, or other dangerous weapon.

3.

The defendant shall provide to the U.S. Probation Officer any requested financial
information.

4.

The defendant shall not leave the judicial district where the defendant is being supervised
without the permission of the Court or U.S. Probation Officer.
2

Case 4:19-cr-00003-A Document 31 Filed 05/17/19

Page 3 of 5 PageID 81

5.

The defendant shall report to the U.S. Probation Officer as directed by the court or U.S.
Probation Officer and shall submit a truthful and complete written report within the first
five (5) days of each month.

6.

The defendant shall answer truthfully all inquiries by the U.S. Probation Officer and
follow the instructions of the U.S. Probation Officer.

7.

The defendant shall support his dependents and meet other family responsibilities.

8.

The defendant shall work regularly at a lawful occupation unless excused by the U.S.
Probation Officer for schooling, training, or other acceptable reasons.

9.

The defendant shall notify the probation officer at least ten (10) days prior to any change
in residence or employment.

10.

The defendant shall refrain from excessive use of alcohol and shall not purchase, possess,
use, distribute, or administer any narcotic or other controlled substance, or any
paraphernalia related to such substances, except as prescribed by a physician.

11.

The defendant shall not frequent places where controlled substances are illegally sold,
used, distributed, or administered.

12.

The defendant shall not associate with any persons engaged in criminal activity, and shall
not associate with any person convicted of a felony unless granted permission to do so by
the U.S. Probation Officer.

13.

The defendant shall permit a probation officer to visit him at any time at home or
elsewhere and shall permit confiscation of any contraband observed in plain view by the
U.S. Probation Officer.

14.

The defendant shall notify the probation officer within seventy-two (72) hours of being
arrested or questioned by a law enforcement officer.

15.

The defendant shall not enter into any agreement to act as an informer or a special agent
of a law enforcement agency without the permission of the court.

16.

As directed by the probation officer, the defendant shall notify third parties of risks that
may be occasioned by the defendant's criminal record or personal history or
characteristics, and shall permit the probation officer to make such notifications and to
confirm the defendant's compliance with such notification requirement.

The court hereby directs the probation officer to provide defendant with a written
statement that sets forth all the conditions to which the term of supervised release is subject, as
contemplated and required by 18 U.S.C. § 3583(f).

3

Case 4:19-cr-00003-A Document 31 Filed 05/17/19

Page 4 of 5 PageID 82

The court did not order a fine because the defendant does not have the financial resource
or future earning capacity to pay a fine.

STATEMENT OF REASONS
The "Statement of Reasons" and personal information about the defendant are set forth
on the attachment to this judgment.
Signed this the 17th day of May, 2019.

JO

4

McBRYDE
ITED STATES DISTRIC JUDGE

Case 4:19-cr-00003-A Document 31 Filed 05/17/19

Page 5 of 5 PageID 83

RETURN
I have executed the imprisonment part of this Judgment as follows:

Defendant delivered on --------------, 2019 to -----------------------------at-------------------------------------' with a certified copy of this Judgment.
United States Marshal for the
Northern District of Texas
By ________________________________

Deputy United States Marshal

5

